<html>
<title> - EXAMINING LEGISLATION TO ADDRESS THE RISKS ASSOCIATED WITH PER-AND POLYFLUOROALKYL SUBSTANCES (PFAS)</title>
<body><pre>[Senate Hearing 116-35]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 116-35

                   EXAMINING LEGISLATION TO ADDRESS 
  THE RISKS ASSOCIATED WITH PER- AND POLYFLUOROALKYL SUBSTANCES (PFAS)

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


        Available via the World Wide Web: http://www.govinfo.gov
               
               
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-935 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8fffe0cfecfafcfbe7eae3ffa1ece0e2a1">[email&#160;protected]</a>                   
                  
              
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 22, 2019
                              
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont, 
  prepared statement.............................................   179

                               WITNESSES

White, Kimberly Wise, Ph.D., Senior Director, Chemical Products 
  and Technology, American Chemistry Council.....................     5
    Prepared statement...........................................     8
    Responses to additional questions from:
        Senator Barrasso.........................................    14
        Senator Carper...........................................    17
        Senator Capito...........................................    20
Daniels, Lisa, Past President, Association of State Drinking 
  Water Administrators, and Director, Bureau of Safe Drinking 
  Water, Pennsylvania Department of Environmental Protection.....    22
    Prepared statement...........................................    24
    Responses to additional questions from:
        Senator Barrasso.........................................    41
        Senator Carper...........................................    43
        Senator Capito...........................................    48
Faber, Scott, Senior Vice President, Government Affairs, 
  Environmental Working Group....................................    58
    Prepared statement...........................................    60
    Responses to additional questions from:
        Senator Barrasso.........................................    68
        Senator Carper...........................................    68
        Senator Capito...........................................    71
        Senator Sanders..........................................    71
Mehan, G. Tracy III, Executive Director, American Water Works 
  Association....................................................    75
    Prepared statement...........................................    77
    Responses to additional questions from:
        Senator Barrasso.........................................    91
        Senator Carper...........................................    95
        Senator Capito...........................................   100

                          ADDITIONAL MATERIAL

Text of legislation submitted for the record:
    S. 638, To require the Administrator of the Environmental 
      Protection Agency to designate per- and polyfluoroalkyl 
      substances as hazardous substances under the Comprehensive 
      Environmental Response, Compensation, and Liability Act of 
      1980, and for other purposes...............................   180
    S. 950, To require the Director of the United States 
      Geological Survey to perform a nationwide survey of 
      perfluorinated compounds, and for other purposes...........   182
    S. _, To improve and coordinate interagency Federal actions 
      and provide assistance to States for responding to public 
      health challenges posed by emerging contaminants, and for 
      other purposes.............................................   189
    S. _, To encourage Federal agencies to expeditiously enter 
      into or amend cooperative agreements with States for 
      removal and remedial actions to address PFAS contamination 
      in drinking, surface, and ground water and land surface and 
      subsurface strata, and for other purposes..................   207
    S. _, To amend the Safe Drinking Water Act to require the 
      Administrator of the Environmental Protection Agency to set 
      maximum contaminant levels for certain chemicals, and for 
      other purposes.............................................   215
    S. _, To include certain perfluoroalkyl and polyfluoroalkyl 
      substances in the toxics release inventory, and for other 
      purposes...................................................   218

 
  EXAMINING LEGISLATION TO ADDRESS THE RISKS ASSOCIATED WITH PER-AND 
                   POLYFLUOROALKYL SUBSTANCES (PFAS)

                              ----------                              


                        WEDNESDAY, MAY 22, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:47 a.m. in room 
406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Capito, Boozman, Braun, 
Ernst, Cardin, Markey, Whitehouse, Gillibrand, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today we are going to continue the Committee's work 
examining the risks associated with per- and polyfluoroalkyl 
substances, or PFAS. PFAS are a large class of chemicals known 
for their resistance to oil and water. Since the 1940s, PFAS 
has been used in a broad array of industrial, commercial, and 
consumer applications, including non-stick cookware, waterproof 
clothing, stain resistant fabrics, food packaging, and 
firefighting foams. Scientists have found that these chemicals 
break down very slowly, if at all, in the natural environment. 
They have also found that some accumulate in the human body. 
These chemicals travel through water, air, and soil. Humans 
ingest them, inhale them, and absorb them through their skin. 
It is estimated that 90 percent of Americans have detectable 
concentrations of PFAS in their blood.
    Some of these chemicals are associated with a number of 
negative health effects. To date, scientists have detected 
pollution from these chemicals all over the world and in nearly 
every State. It appears to be concentrated in communities 
located near or downstream from military bases, airports, 
firefighting facilities, and chemical manufacturing and 
processing facilities.
    In March, this Committee heard from four witnesses 
representing the Environmental Protection Agency, the 
Department of Health and Human Services, and the Department of 
Defense in order to learn what steps the executive branch is 
taking to addresses the risks associated with PFAS. Today we 
are going to examine six bipartisan bills which have been 
introduced to address these risks. They include S. 638, 
introduced by Ranking Member Carper and Senator Capito; S. 950, 
introduced by Senators Stabenow and Rounds; S. 1251, introduced 
by Senators Shaheen and Portman; S. 1372, introduced by 
Senators Stabenow and Rubio; S. 1473, introduced by Senators 
Gillibrand and Capito; and S. 1507, introduced by Senators 
Capito and Gillibrand.
    Addressing this pollution is a priority of this Committee. 
That is why we included provisions to help public water systems 
address emerging contaminants, including PFAS, in America's 
Water Infrastructure Act. It is also why I intend to negotiate 
and report a bipartisan legislative package addressing PFAS 
pollution this Congress.
    I can't support some of these bills as currently written. 
For example, I am concerned about sidestepping the rulemaking 
process used to assess the risks associated with chemical 
compounds under our Nation's bedrock environmental laws. 
Congress established these rulemaking processes decades ago. It 
believed that Federal agencies are better positioned to 
evaluate the science behind the regulation of chemicals.
    In addition, I question whether we should treat all PFAS as 
if they posed the same level of risk to human health and the 
environment. These chemical substances vary widely. While much 
more research is needed, the risks these chemicals pose does 
seem to vary as well. Some of these compounds are used in 
medical devices, like pacemakers. Others are used as inhalers. 
It is critical that we acknowledge the differences among these 
chemicals.
    I also have concerns about Congress imposing Superfund 
liability on parties that use these substances in good faith. 
For example, our Nation's airports, refineries, and others used 
firefighting foam containing PFAS in order to protect their 
workers and the public at large. Others, like metal finishers, 
used these chemicals as a means to successfully reduce air 
emission and workers' exposure to cancer causing heavy metals. 
All these entities were either following regulations or the 
industry's best practices. Still others, like wastewater 
treatment facilities and landfills, are often unknowing 
recipients of PFAS.
    Congress has a critical role to play in ensuring that the 
Federal Government responds to the risks associated with these 
chemicals in a timely manner. Today's hearing is an important 
step in identifying how we should proceed on this issue.
    I would now like to turn to Ranking Member Carper for his 
opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Good morning, everyone. Thanks for joining us; nice to see 
you.
    Thank you, Mr. Chairman, for scheduling this hearing, and 
for the collaborative way in which you and your staff have 
approached our Committee's work on addressing a lot of issues, 
but particularly the contamination from per- and 
polyfluoroalkyl substances, otherwise known as PFAS. Thank God 
for acronyms. I have never been a fan of acronyms, Mr. 
Chairman, but on this subject, I am definitely one.
    I suspect that just about every member of our Committee has 
heard from their constituents with concerns about PFAS 
contamination in their respective States. PFAS can be found 
nearly everywhere, from non-stock cookware to microwave popcorn 
bags to cleaning products and stain-resistant fabrics to 
firefighting foam used at military bases and airports across 
the country.
    Forty-six years ago this spring, Mr. Chairman, I was a 
young naval flight officer stationed at Moffatt Field Naval Air 
Station. We operated P-3s out of there, out of Hunt for Red 
October, and did a lot of missions off the coast of Vietnam and 
Cambodia during the Vietnam war.
    But in April 1973, I was driving into work one morning, 
didn't have to fly right away. I was a couple miles out from 
Moffatt Field, where we shared a base with NASA. They had some 
big planes there, and we had our Navy P-3s, which are not small 
planes, by any stretch of the imagination.
    But as I drove to work on a sunny April morning, I could 
see from a distance, several miles away, a large black plume of 
smoke arising from the air station while I was some distance 
away. A large NASA Convair jet had been cleared to land on the 
same runway and at the same time as a Navy P-3 aircraft. 
Literally, the larger plane squashed the smaller plane.
    It took over an hour for firefighters to control the blaze. 
Later that day we would learn that 16 people had died, I think 
the entire crew of the NASA Convair and all but one crew member 
on the P-3. I understand that the use of the chemicals that 
were used that day, fighting that fire, trying to save lives, 
has supported our military readiness and saved lives. But the 
cruel irony is that when PFAS ends up in a glass on a kitchen 
table or in this glass of water those same chemicals can 
endanger lives, not save them.
    Our colleagues in the industry often remind Congress that 
PFAS chemicals are used in everything from medical devices to 
solar panels. I think I can speak for just about everyone when 
I say that is not a really good point. We want PFAS chemicals 
to stay in the solar panels and not in our drinking water. That 
is really why we are here today.
    These highly persistent and ubiquitous chemicals are 
threatening the drinking water of millions of people in our 
country, and I am sure, outside of our country, too. In the 
southwestern corner of Delaware, for example, the people in the 
small town of Blades, right outside the slightly larger town of 
Seaford, were told last year or maybe 2 years ago to stop 
drinking the water there because PFAS chemicals were found to 
be present at nearly twice the Federal health advisory level. 
Just up the road at the Dover Air Force Base, roughly 50 miles 
away, more than half the groundwater wells tested there show 
dangerously, dangerously high levels of PFAS and PFOA.
    I have a map here, a map of our country. This recently 
released map shows that more than 600 locations in 43 States 
are contaminated. Those are just the known locations. My hope 
is that the witnesses, all of you before us today, will work 
constructively with our Committee as we seek to forge a 
consensus approach to addressing this complex problem. My hope 
is that we all leave here today in strong agreement that 
Congress must take action sooner, rather than later, because 
this is an issue that deserves a sense of urgency.
    One might think that the extent of this problem would lead 
the Environmental Protection Agency to respond with a sense of 
urgency. But sadly, that has not been the case, at least not 
yet. First, EPA's 2019 PFAS action plan largely includes 
commitments to consider, to consider whether to regulate PFAS 
contamination, steps that Scott Pruitt--and that is almost a 
year earlier, second Administrator--really, really refused to 
commit to setting a drinking water standard for PFAS until 
public and congressional outcry forced him to reverse course 
before he was confirmed. Finally, EPA weakened its draft 
guidance for cleaning up contaminated PFAS sites following 
pressure from the Defense Department.
    So it is no surprise that many States are taking matters 
into their own hands and setting their own drinking water and 
cleanup standards. Neither is it a surprise that many elected 
officials have concluded that Federal legislation is needed to 
more urgently and decisively address this challenge.
    Six pieces of bipartisan legislation that seek to do just 
that are the subject of today's hearing. Among other things, 
these bills seek to designate PFAS as a hazardous substance 
under the Superfund law, to compel EPA to establish a safe 
drinking water standard for PFAS within 2 years, inform the 
public when the PFAS chemicals are being released into the 
environment, as well as create faster cleanups and more 
interagency coordination and research and monitoring 
technologies.
    While some of the bills before our Committee today propose 
to regulate every single PFAS chemical, and there are a lot of 
them, as you know, others have concluded that all of these 
chemicals do not pose the same safety and risks, a point raised 
by the Chairman in his statement. People have raised some 
implementation concerns about immediately regulating every 
single PFAS chemical at once.
    One approach to addressing this concern lies in the PFAS 
Release Disclosure Act, authored by Senator Capito, on which my 
staff and I were proud to work and co-sponsor, along with 
Senator Gillibrand. That bill, our bill, would immediately add 
about 200 to the 602 PFAS chemicals currently in commerce to 
the Toxics Release Inventory, so that the public would be 
informed when those chemicals are released into our 
environment.
    This bill does so by acknowledging the EPA's authority 
under the Toxic Substances Control Act to find that these 
specific PFAS chemicals do pose a risk. Thus, there is no need 
to do more research or spend more time before adding these 
chemicals to the Toxics Release Inventory.
    The bill also ensures that in the future, whenever EPA 
finds that additional PFAS chemicals pose a risk, these 
chemicals will also be included in the Toxics Release 
Inventory. I am especially interested in our witnesses' views 
on this particular approach.
    In the Navy, where I spent 23 years of my life, actually 27 
years of my life, but when faced with an especially challenging 
mission, we would call for all hands on deck, even if we were 
not on a ship, we would call for all hands on deck. Today, we 
need a different kind of all hands on deck. But we do need one, 
nonetheless. When our Committee, this Committee, overhauled 
TSCA a couple of years ago, we did so with a partnership that 
included all of us, EPA, industry, and many environmental and 
public health organizations. We need those same partners to 
pull together again now in order to support our Committee's 
work to expeditiously develop legislation and improve 
legislation already introduced to address the PFAS 
contamination problems that we face in communities as we saw 
from this map across the country. A growing number of Americans 
are counting on that, to do just that, and we can't let them 
down.
    So Mr. Chairman, thanks very much for this important 
hearing. I will be here for part of it, but I have to slip over 
to another meeting at the White House on infrastructure. I will 
download with you later, maybe after lunch.
    Senator Barrasso. Thank you very much; thanks, Senator 
Carper.
    We do have a wonderful group of witnesses today. We are 
going to hear from them now. We are joined by Dr. Kimberly Wise 
White, who is a Senior Director in the Chemical Products and 
Technology Division at the American Chemistry Council.
    Thank you for being with us.
    We also have with us Lisa Daniels, who is the Past 
President of the Association of State Drinking Water 
Administrators, and is currently the Director of the Bureau of 
Safe Drinking Water at the Pennsylvania Department of 
Environmental Protection. We have Scott Faber, who is Senior 
Vice President of Government Affairs at the Environmental 
Working Group. And finally, G. Tracy Mehan, who is the 
Executive Director of Government Affairs at the American Water 
Works Association.
    Welcome to all of you. I want to remind you that your full 
written testimony will be made part of the official hearing 
record today. So please try to keep your statements to 5 
minutes, so that we will have time for questions. I look 
forward to hearing your testimony.
    With that, we can start with Ms. White.

   STATEMENT OF KIMBERLY WISE WHITE, PH.D., SENIOR DIRECTOR, 
  CHEMICAL PRODUCTS AND TECHNOLOGY, AMERICAN CHEMISTRY COUNCIL

    Ms. White. Good morning, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee. My name is Dr. Kimberly 
Wise White, and I am a toxicologist with the American Chemistry 
Council.
    My work has focused mainly on supporting scientific 
research and chemical risk assessment practices focused 
primarily on up to date scientific knowledge and the most 
relevant scientific approaches.
    I appreciate this opportunity to provide a scientist's 
perspective on several of the legislative proposals before the 
Committee today. Addressing concerns regarding potential public 
health risks of PFAS and ensuring safe access to drinking water 
for all Americans is critically important. ACC shares this 
Committee's commitment to identifying ways to address and where 
warranted, mitigating the risk, of PFAS chemistries. The 
chemical industry supports a comprehensive approach to managing 
these substances, including specific measures to prioritize, 
evaluate, regulate, innovate, and monitor PFAS chemistries. 
Having science at the forefront of regulatory approaches allows 
for the most relevant data on hazard and exposure, validated 
methodologies, and relevant, issue specific expertise to 
underpin decisions.
    Let me take this opportunity to highlight four points which 
illustrate the important role science has in any chemical 
management strategy. First, today's PFAS chemistries play an 
essential role in modern life. PFAS is a term that describes a 
wide and diverse variety of substances in a broad range of 
applications that provide strength, durability, stability, and 
resilience. For example, today's PFAS are used in medical 
devices, the development of semiconductors, and applications in 
energy and fuel efficiency. Taking an overly broad approach to 
addressing PFAS chemistries that lacks a scientific foundation 
will make it difficult to implement effective regulatory 
policies.
    Second, application and adherence to the administrative 
process is critical for PFAS chemical management. The 
Administrative Procedures Act governs the process by which 
Federal agencies develop and issue regulations. Circumventing 
the regulatory process by developing legislation that does not 
provide for public input and does not allow those Federal 
agencies to utilize their specific expertise undermines the 
process and may lead to regulatory decisions that lack a sound 
basis and which do not focus on the priority issues.
    Third, science based approaches should be the foundation of 
any legislation and regulation. A robust body of science 
demonstrates the vast differences among individual PFAS, and 
peer reviewed data shows that fluoropolymers, for example, and 
several other PFAS chemistries do not present a risk to human 
health or the environment. Given this information, it is not 
appropriate to treat all PFAS chemistries the same. This 
includes when establishing drinking water levels, cleanup 
levels of lifetime safe exposure limits.
    To be scientifically credible, proposed legislation seeking 
to develop maximum contaminant levels for drinking water should 
be consistent with the Safe Drinking Water Act. Similarly, 
scientifically credible and meaningful cleanup levels should 
use directly relevant scientific information to determine if it 
warranted designation as a hazardous substance or the 
establishment of cleanup levels. Most importantly, the 
leadership of Federal agencies with a primary mission to 
protect human health and the environment is critically 
important to any successful implementation of a regulatory 
approach.
    Finally, a single class approach to evaluating PFAS is not 
scientifically justified. As I have mentioned, no two PFAS 
substances have the same hazard or environmental profile. This 
is critically important in evaluating specific chemical 
information.
    Last week, the National Academies evaluated the same 
question of whether a single class approach could be applied to 
evaluating another set of chemistries, and they concluded that 
it was not scientifically appropriate. Instead, the National 
Academies suggested the identification of subclasses using 
chemical structure, chemical physical properties, toxicological 
information, and bioactivity to make determinations. ACC 
believes that a similar approach could be taken for addressing 
PFAS.
    In summary, ensuring that up to date, high quality data, 
and science based approaches underlie regulatory decisionmaking 
is critical to protecting human health and the environment. 
This can be achieved by recognizing that a one size fits all 
approach is not appropriate. Understanding and prioritizing 
PFAS chemistries will be critical to this Committee's effort to 
maximize Federal resources and focus on priority issues. This 
also allows technologies that are not a threat to human health 
or the environment to continue to achieve their intended 
purpose, which is advancing innovation.
    Thank you for this opportunity to provide testimony, and I 
look forward to addressing your questions.
    [The prepared statement of Ms. White follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much, Dr. White. We 
appreciate your testimony.
    Now, Ms. Daniels.

STATEMENT OF LISA DANIELS, PAST PRESIDENT, ASSOCIATION OF STATE 
  DRINKING WATER ADMINISTRATORS, AND DIRECTOR, BUREAU OF SAFE 
   DRINKING WATER, PENNSYLVANIA DEPARTMENT OF ENVIRONMENTAL 
                           PROTECTION

    Ms. Daniels. Good morning, Chairman Barrasso, Ranking 
Member Carper, and members of the Committee. Thank you for 
inviting me to speak today.
    My name is Lisa Daniels. I am the Past President of the 
Association of State Drinking Water Administrators, whose 
members include the 50 State drinking water programs, five 
territorial programs, the District of Columbia and the Navajo 
Nation. ASDWA members have primary oversight responsibility for 
implementing the Federal Safe Drinking Water Act. Our members 
and their staff provide technical assistance, support, and 
oversight of drinking water systems which is critical to 
ensuring safe drinking water.
    I am also the Director of the Bureau of Safe Drinking Water 
within the Pennsylvania Department of Environmental Protection.
    Today, I will discuss ASDWA's perspective on gaps in 
existing Federal laws and regulations and how the proposed 
legislation and strengthened Federal actions can more 
effectively address PFAS.
    PFAS had been a growing concern for the drinking water 
community for more than a decade. The solubility, mobility, and 
bioaccumulative properties of PFAS continue to heighten 
concerns about potential adverse health effects. States, water 
systems, and the public need national leadership to address 
this growing public health problem.
    ASDWA believes the question is not whether to regulate 
PFAS, but how and when, using sound science. ASDWA's key issues 
include the following. No. 1, coordinated Federal leadership is 
needed to effectively address PFAS. States are at different 
stages in their knowledge and implementation of PFAS measures. 
While some States have the authority and the technical and 
financial resources to develop their own standards, many do 
not. EPA's PFAS action plan is a step in the right direction, 
but without firm timelines and commitment, many are looking to 
States to take the lead on PFAS.
    In my own State of Pennsylvania, we have announced steps to 
move forward with setting an MCL. To support this effort, we 
are coordinating statewide sampling to generate occurrence 
data, we are contracting for additional toxicology services, 
and we are gearing up to be able to analyze for PFAS in our 
State lab. It is important to know that this will be the first 
time that Pennsylvania has set its own MCL, and these actions 
have been and will continue to be a challenge due to limited 
resources. We estimate that at least $1.5 million annually will 
be needed for us to be able to move forward and set this 
proposed rulemaking.
    Twelve other States have taken some action to set the State 
standards or advisory levels, which has led to a patchwork of 
regulations which pose significant challenges in terms of risk 
communication and certainly a burden on these States in terms 
of resources.
    No. 2, ASDWA believes that PFAS must be addressed using a 
multi-media and cross-statutory approach. To fully address 
PFAS, actions under CERCLA, TSCA, the Clean Water Act, and the 
Safe Drinking Water Act should be evaluated and strengthened 
where needed to remediate legacy PFAS and reduce or eliminate 
the introduction of these chemicals into the environment, and 
most importantly, make the manufacturers responsible for those 
costs. ASDWA also advocates for regulation as a class or 
classes, rather than one contaminant compound by compound 
basis.
    No. 3, ASDWA supports the development of a national 
priority framework and research agenda for PFAS and other 
emerging contaminants. Additional occurrence data is needed to 
quantify the extent of PFAS in water. Increased availability of 
toxicity and human health data is also necessary to support 
policy decisions. Other related needs include a total organic 
fluorine method for screening purposes, additional PFAS 
analytical methods for other matrices like wastewater and soil. 
Increased lab capacity is a real concern across the State, and 
treatment efficacy, design and construction standards for 
treatment.
    No. 4, additional funding for EPA, the States, and water 
suppliers is essential. At present, State primacy agencies are 
diverting resources from core drinking water programs, 
including inspections and plan reviews, to address PFAS. 
Without additional funding, both the core program and the work 
to address PFAS will suffer. Increased funding is needed for 
EPA to support the development of treatment technologies, 
laboratory methods, and really help with lab capacity issues.
    Certainly, alternate funding sources are going to be needed 
for our public water systems to deal with treatment costs when 
a responsible party cannot be identified. We will not be able 
to identify a responsible party in all cases. And SRF programs, 
although they can provide loans, do not have the subsidy to 
address the big issue of PFAS and continue to deal with other 
important issues, like lead, for example.
    So in conclusion, ASDWA applauds Congress for moving the 
ball forward and introducing several bills in both the House 
and Senate that gives us a much broader perspective on PFAS.
    Thank you.
    [The prepared statement of Ms. Daniels follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thanks so much for your testimony, Ms. 
Daniels.
    Mr. Faber.

  STATEMENT OF SCOTT FABER, SENIOR VICE PRESIDENT, GOVERNMENT 
              AFFAIRS, ENVIRONMENTAL WORKING GROUP

    Mr. Faber. Thank you, Chairman Barrasso, and Ranking Member 
Carper.
    Last week, Ken Cook, the President of EWG, and I had the 
opportunity to spend a day on Capitol Hill with Sue Bailey, who 
is a resident of Parkersburg, West Virginia, who was exposed to 
PFOA in the 1960s while she was pregnant, and with her son, 
Bucky Bailey. While we were meeting with Senator Carper, 
Senator Carper asked Sue, how would you address, how would you 
tackle the PFAS problem.
    Senator Carper, you remember what Sue said. She said, how 
do you eat an elephant? And of course, the answer is one bite 
at a time.
    I think this hearing really reflects the spirit of Sue 
Bailey, that while we won't solve all of the challenges facing 
the PFAS contamination crisis by passing these six bills, these 
six bills will tell us much more about the extent of PFAS 
contamination. They will tell us much more about the sources of 
PFAS contamination. And they will begin to start the cleanup 
process and cleanup a mess that, frankly, has taken three 
generations to create.
    As you have heard, nearly all of us are contaminated with 
these forever chemicals. We are exposed to dozens of PFAS every 
day through our food, water, dust, clothing, carpets, even 
through our cosmetics. And exposure to even very low doses of 
PFAS are associated with very serious health risks. While the 
health effects of PFOA and PFAS are well understood, due in 
large part to what happened in Parkersburg, West Virginia, 
there is growing evidence that replacement chemicals, like GenX 
and PFBS and many others pose many of the same risks.
    So clearly, it is time to act. But as Senator Carper said, 
EPA's proposed action plan really fails to treat this 
contamination crisis like a crisis, or as Senator Capito said 
at your hearing in March, EPA is not acting like this is 
personal. And for people like Sue Bailey or Bucky Bailey or 
people who live near F.E. Warren Airbase or Dover Airbase, this 
is very personal. And that is why today's hearing is so 
important.
    Bills like S. 950, the PFAS Detection Act, will help us 
better understand just how extensive the PFAS crisis is. In 
addition, requiring water utilities to monitor for all 
detectable PFAS in the next unregulated contaminant monitoring 
rule is equally important. Bills like S. 1507, the PFAS 
Disclosure Act, will add hundreds of PFAS to the Toxics Release 
Inventory, which is an important first step that will tell us 
much more about where PFAS pollution is coming from.
    Bills like S. 638 and S. 1372 will help us accelerate PFAS 
cleanup efforts, and in particular, S. 638, the PFAS Action 
Act, will kick start the PFAS cleanup process, and S. 1372, the 
PFAS Accountability Act, will ensure that Federal agencies, 
including the Department of Defense, take responsibility for 
their legacy pollution.
    S. 1473, the Protecting Drinking Water from PFAS Act, will 
require EPA to finally set a drinking water standard for water 
utilities. As you have heard, States are leading the way, 
setting tough science based PFAS drinking water standards. EPA 
standards should build on the progress being made in States 
like New Jersey and Pennsylvania. But you shouldn't have to 
live in New Jersey or Pennsylvania to have clean water.
    So as Sue would say, we have to eat this elephant one bite 
at a time. But there are some other steps that Congress should 
also take to ensure that we don't make the PFAS problem worse. 
First, we should address ongoing releases of PFAS into the air 
and water. Second, we should ensure that sewage sludge 
contaminated with PFAS is not being spread on our farm fields. 
And third, we should ensure that PFAS wastes are being properly 
disposed.
    Last year, Congress took steps to reduce the use of 
fluorinated foams at civilian airports. The bills that are the 
subject of today's hearing, and the other steps I have just 
mentioned would help build on that progress.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Faber follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much for your testimony, 
Mr. Faber. We're very grateful.
    Mr. Mehan.

 STATEMENT OF G. TRACY MEHAN III, EXECUTIVE DIRECTOR, AMERICAN 
                    WATER WORKS ASSOCIATION

    Mr. Mehan. Thank you. Good morning, Chairman Barrasso, 
Ranking Member Carper, and members of the Committee. My name is 
Tracy Mehan, I am Executive Director of Government Affairs for 
the American Water Works Association, or AWWA, on whose behalf 
I am speaking today. I appreciate this opportunity to offer 
AWWA's perspectives on the many pressing issues surrounding 
PFAS.
    Let me first of all say that this is a congenial 
environment for me. This Committee had confirmed my nomination 
as Assistant Administrator for Water back in 2001, so this is a 
congenial environment.
    I also want to thank the Committee, the entire Committee, 
for their support in reauthorizing the Drinking Water State 
Revolving Loan Fund, as well as doubling the authorized amount 
for that fund, as well as putting RIFIA, the new Federal credit 
program for water infrastructure, on a permanent footing. We 
are most grateful for that support for what is maybe the 
greatest single threat to the public health of the United 
States and the drinking water sector.
    AWWA's 50,000 members represent the full spectrum of water 
utilities, small and large, rural and urban, municipal and 
investor owned. I speak not only from the perspective of AWWA, 
but as a former State and Federal regulator, an adjunct 
professor of environmental law and a cancer survivor. Our 
members are really the most customers facing of anyone dealing 
with this issue day and deal every day with their customers in 
hopefully an honest, truthful, and straightforward way as to 
what we know and what we don't know about the various risks 
facing our drinking water systems.
    Drinking water utilities and State environmental agencies 
need to know where to focus monitoring resources to understand 
what risks may be in source waters. This is a key part of what 
we call source water protection. There are existing tools that 
EPA could be using to a greater degree to help address such 
concerns regarding PFAS. In particular, as mentioned by Lisa, 
the Toxic Substances Control Act, or TSCA, deploying these 
authorities in the service of safe drinking water is source 
water protection at the most strategic level.
    Working with EPA's technical staff, which we heartily 
encourage, we agree that we need an all hands on deck approach, 
and TSCA is probably one of the biggest hands to use. We urge 
Congress to ensure that EPA takes advantage of such existing 
authorities under TSCA to manage risks posed by PFAS compounds. 
Using this authority, the agency needs to provide a report in 
one year and update it every 2 years, describing the location 
of current and past PFAS production, import, processing, and 
use in the United States for individual PFAS compounds, based 
on the data collected through TSCA. We have tried to get some 
of this information, and it is not that easy, although we 
believe it is there. Appropriate actions should also be planned 
or taken under TSCA to restrict production, use and import of 
PFAS and support improved risk communications with the public. 
Actions taken by other Federal agencies, in particularly the 
Departments of Defense and Human Health Services to address 
PFAS concerns should also be reported upon.
    Finally, statutory and non-statutory barriers encountered 
in gathering and distributing information on PFAS in order to 
inform risk management decisions by EPA, States, and local risk 
managers, should be included.
    EPA officials promised to issue a proposed regulatory 
determination of PFAS and PFOA under the Safe Drinking Water 
Act processes this year. We urge Congress to support EPA's 
Office of Water, particularly in appropriations, as it works 
through the rule determination process.
    With regard to Federal drinking water standards setting 
process, we understand that it is frustratingly slow. However, 
a scientific risk based and data driven process that discerns 
what substances are to be regulated and at what levels is 
indeed going to take a significant amount of time and 
resources. We caution against setting a precedent by bypassing 
these established processes via legislative action. The Nation 
tested that approach with the 1986 amendments to the Safe 
Drinking Water Act with untoward results. There is an appendix 
to my written testimony which sets out some of the concerns and 
problems that relate with that. I would be happy to discuss 
that.
    That said, we are eager to follow the data on PFAS wherever 
it goes, and we will work with our members to comply with 
whatever regulations are forthcoming. Believe me, the biggest 
concern we face is the trillion dollar need to replace and 
expand our water infrastructure. Water rates are going up at 
maybe 3 percent higher than the CPI. We have additional costs 
now with lead service line replacements. So we need to make 
smart decisions so we do not mis-deploy resources going after 
less risky challenges than the ones we already know.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Mehan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Well, thank you very much for your 
testimony.
    Thanks to the entire Committee.
    We are going to now proceed with some questions.
    I would like to start, Dr. White, visiting with you about, 
as EPA has said, it has initiated the regulatory development 
process for listing two specific PFAS substances, PFAS and 
PFOA, as hazardous substances under the Superfund law.
    Does the American Chemistry Council support EPA's ongoing 
process of what they are talking about doing in this matter?
    Ms. White. Thank you, again, Senator Barrasso, for your 
question. ACC does support EPA's activities to review and 
determine whether or not PFAS and PFOA should be designated as 
hazardous substances under the CERCLA Act. Again, as a 
scientist, it has to be a science based process, that outlines 
and follows the science and the data that we would need to 
determine whether or not they actually would comply with that.
    So as long as it is a science based process, ACC absolutely 
supports EPA's review and would like to see that expedited, so 
we can make a determination.
    Senator Barrasso. So if enacted, several of the bills, 
again for you, Dr. White, several of the bills that we are 
considering today would regulate all PFAS substances in the 
same manner. Would you help us understand some of the principal 
differences between chemicals within this class?
    Ms. White. Absolutely. As I mentioned from the very 
beginning of my testimony, all PFAS are different. They don't 
have the same hazard profile or environmental profile. For 
example, fluoropolymers are very large molecules that are 
usually not bioavailable and not water soluble. So again, you 
would not find them in drinking water, for example, and you 
would not see them having increased toxicity.
    So you can't treat all of these PFAS chemistries the same. 
That is why you can't have a one size fits all approach. You 
really have to look at the scientific data that is relevant for 
each one of those chemistries, determine whether or not there 
is a potential human health risk, and then take action if there 
is.
    Senator Barrasso. Thank you.
    Ms. Daniels, if I could turn to you. In some communities, 
PFAS is just one of the many known drinking water contaminants. 
Help us understand how the risks associated with PFAS compare 
to the risks associated with other drinking water contaminants. 
And you know what they are, we can go through them, lead, 
disinfection byproducts, legionella, a number of different 
things out there.
    Ms. Daniels. Sure, thank you for your question. Absolutely, 
there are other high priority contaminants out there that water 
systems and States are dealing with. In a lot of those cases, 
the risk is known. We know a lot about those chemicals. 
Legionella and other pathogens, microbial pathogens, have 
always been a big part of protection efforts, because you have 
acute health effects associated with those chemicals.
    Legionella has been a challenge for us, and one of the 
concerns is if you are tracking water borne disease outbreaks 
through the CDC reporting, legionella has actually increased 
550 percent since 2000 in terms of the number of outbreaks. So 
it is something we are very concerned about.
    It is one of the reasons, in our testimony, that we talk 
about the fact that working on PFAS is taking work away from 
our core programs, which concerns us a little bit. Lead 
continues to be a major issue for States. I think we are doing 
what we can to really focus on lead in schools and lead in day 
care facilities as we await EPA to come out with their long-
term revisions to the Lead and Copper Rule.
    So having said that, PFAS is important to States; it is 
important to water systems. The challenge with PFAS, it is 
everywhere. It is everywhere. It is everywhere. I don't know 
that I have quite seen a contaminant like that, where you have 
to be so concerned when you are taking a sample, about cross-
contamination. If you have deodorant on, if you have put 
lotions on that day, you have the potential to cross-
contaminate that sample.
    So when I think about PFAS, there absolutely has to be 
focus on an incremental reduction of getting those chemicals 
out of commerce because we can't just solve this as a drinking 
water issue.
    Senator Barrasso. Thank you very much.
    Mr. Mehan, if I could just visit with you. In your 
testimony, you discuss the process to establish a national 
drinking water standard. You state caution against setting a 
precedent of bypassing these established precedents via 
legislative action. You say the Nation tested that approach in 
the 1986 amendments to the Safe Drinking Water Act with 
untoward results.
    Could you explain what happened following those amendments 
in 1986 for some of us who weren't there at the time?
    Mr. Mehan. Right. At the time, I was running the Missouri 
Department of Natural Resources which had delegated primacy for 
the drinking water program. Under the 1986 amendments, 
essentially, EPA was mandated to put out 25 new MCLs every 3 
years, I believe it was. So we were at the receiving end of 
this process. Staff couldn't quite explain to me what the risks 
were that were being addressed, but nonetheless, we had to go 
to our legislature, beg, borrow, and persuade to get a fee in 
place. Of course, the utilities didn't like that; the customers 
didn't like it. Nobody liked it, but we had to do it. Of 
course, then, there was just the rulemaking process and the 
cost.
    So it was kind of a mess. There is also the question of 
misdirection of resources, what are the opportunity costs of 
this approach as opposed to dealing with real risks like lead, 
disinfection byproducts, et cetera, are the basic 
infrastructure of the utilities themselves.
    In the appendix I have, I have a quote from June Swallow of 
the Rhode Island Department of Health, Lisa's predecessor at 
ASDWA, who basically excoriates the 1986 amendments and said 
instead, new regulated contaminants would be selected based on 
whether their health risk occurrence and comparative risk from 
other exposure pathways warrant regulation. There is also 
quotes from Bob Perciasepe, who you all know, who was running 
the Maryland agency at the same time I was running the Missouri 
agency. While he was at EPA, pretty much expanded on that 
criticism, in terms really of relative or comparative risk type 
of analysis.
    So that was my lived experience with it, and I think it was 
shared by others who were in the trenches at that time.
    Senator Barrasso. Thank you very much.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman. I just want to 
commend, not just our panelists, but I want to commend our 
staffs. Sometimes we have before us witnesses that are majority 
witnesses, minority witnesses. You are all consensus picks, and 
I think early wisely chosen. So thank you for taking the time 
and preparing for this and for responding to our questions.
    I think, Mr. Mehan, you indicated you had been in this room 
before. I suspect others have, too. But for those who are here 
on a return visit, welcome home.
    Mr. Mehan. Thank you.
    Senator Carper. It is good to see you all.
    I am not a big one for yes or no questions, but I am going 
to do a few of those today. And I am going to do it by asking 
you to raise your hands if you disagree with a particular 
statement. I will go slowly and ask you to work with me on this 
if you will. We will see how it goes.
    Please raise your hand if you disagree, if you disagree 
that some PFAS chemicals have been shown to be harmful to human 
health. Please raise your hand if you disagree that some PFAS 
chemicals have been shown to be harmful to human health.
    I see no hands. Thank you.
    Second question. Please raise your hand if you disagree, if 
you disagree, that there should be a Federal drinking water 
standard to regulate the harmful PFAS chemicals that are also 
found in drinking water. I will say it again. Please raise your 
hand if you disagree that there should be a Federal drinking 
water standard to regulate the harmful PFAS chemicals that are 
also found in drinking water. Please raise your hand if you 
disagree.
    We have one who disagrees. Dr. White, thank you.
    Mr. Mehan. I would demure to the question, Senator, in that 
we do not support nor oppose. We commit to the process of 
making a regulatory determination of whether an MCL is needed.
    Senator Carper. OK.
    Mr. Mehan. Primarily for looking at the two prime suspects.
    Ms. White. I would also agree with what Tracy said, that 
you really have to make sure that you are following the 
regulatory process and using the science as the basis for 
making that determination.
    Senator Carper. OK, thanks.
    You have an opportunity to raise your hand if you wish. 
Please raise your hand if you disagree that the public should 
be made aware of releases of harmful PFAS chemicals into the 
environment. Please raise your hand if you disagree that the 
public should be made aware of releases of harmful PFAS 
chemicals into the environment.
    I see no hands. On the second question, we had two who 
spoke. I didn't see too many hands. But I had a couple people 
who spoke, and that was fine.
    A fourth question would be, please raise your hand if you 
disagree that EPA should have the authority under the Superfund 
law to require responsible parties to pay for the cleanup of 
harmful PFAS chemicals, or to clean up itself in cases where no 
responsible party can be found. I will say that one again. 
Again, please raise your hand if you disagree that EPA should 
have the authority under the Superfund law----
    Mr. Mehan. Again, Senator, it is not a question of being 
for or against. We understand the utility of a hazardous waste 
designation.
    However, you have received a letter from actually several 
of our sister associations, AMWA, NACWA, and WIF, and one of 
the issues is the impact on biosolids application, on pre-
treatment, on the wastewater side of the house. As I recall, 
the exact position of NACWA and WIF was that a hazardous waste 
designation under CERCLA would be appropriate as long as there 
is an exemption for water and wastewater utilities.
    Senator Carper. Fair enough.
    Mr. Mehan. Thank you.
    Senator Carper. I saw no other hands. I would like to go 
on.
    Very briefly, Dr. White.
    Ms. White. I feel I should jump in here, just following 
onto what Tracy said. You really do have to follow what the 
CERCLA requirements are. So as long as those are followed, then 
yes. But it has to be based off the science, as outlined in 
CERCLA.
    Senator Carper. Fine. And finally, I tell you what. I am 
not going to ask this next raise your hand question, but I am 
going to go to something further. I know that there is more to 
providing input on legislation than just raising your hands. I 
appreciate that. Thank you for doing that for us. But to that 
end, I just want to ask each of you, just very succinctly, tell 
us what your top priority for PFAS legislation is. Just very 
succinctly, what would be your top priority for PFAS 
legislation?
    Dr. White.
    Ms. White. My top priority is that it is science based, and 
based off the most relevant and best available science for 
those individual chemistries to make decisions.
    Senator Carper. You are on message, which is a good thing.
    Ms. Daniels.
    Ms. Daniels. I would like to see additional legislation 
where it is needed to really enhance what can be done under 
TSCA. EPA talks about TSCA being the gatekeeper. Right now, I 
think the gate is wide open, and I am not even sure where the 
key is. So I think if we can take a look at the authorities 
under TSCA and see if anything else can be done to get some of 
that up front work first done, before these chemicals are 
already out in the environment and potentially in drinking 
water.
    Senator Carper. All right, thank you.
    Mr. Scott Faber.
    Mr. Faber. We think that we really need to kickstart the 
cleanup process, especially where communities are wrestling 
with very seriously contaminated drinking water supplies. And 
we also need to make sure that Federal facilities, especially 
DOD, take responsibility for their legacy pollution, so that 
the PFAS Action Act and the PFAS Accountability Act, we just 
want to assure that DOD does live up to its responsibilities 
would be our top priorities.
    Senator Carper. Just very briefly and succinctly, Mr. 
Mehan, the same question. Your top priority for PFAS 
legislation.
    Mr. Mehan. Reflecting both my written and oral comments, we 
need to get TSCA in the game more vigorously, and also respect 
the processes in the Safe Drinking Water Act.
    Senator Carper. All right, great. Thank you all very, very 
much.
    I am going to slip out here and go solve the infrastructure 
problems of our Nation while the rest of you deal with an 
equally important issue of the PFAS and PFOA.
    Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman, thank all of you 
for being here today. Thank you for today's hearing to examine 
the challenges associated with PFAS contamination across the 
country.
    Unfortunately, these issues are all too familiar to West 
Virginia. We have had our communities at either end of our 
States that have faced the challenges Mr. Faber just talked 
about, responsibility to Federal facilities. So given the 
volume of testimony provided to the Committee for the hearing 
record, this issue is clearly one of national interest and 
significance.
    With my constituents in mind, I have engaged in several 
pieces of legislation meant to address this program, working in 
collaborative and bipartisan fashion, both with Ranking Member 
Carper and also with Senator Gillibrand. Indeed, we rotated 
sponsoring, co-sponsoring, each other's legislation.
    But the bill that I have led, which is the S. 1507, PFAS 
Release Disclosure Act, would set up a process for EPA to add 
various PFAS to the toxic release, the TRI, Toxics Release 
Inventory, subject to the completion of review. I want to get 
to that issue, because I think it requires determinations to be 
grounded in science. You have talked about science, and backed 
by regulatory review processes that involve notice and comment. 
The bill does not include the entire class of the known 6,000 
PFAS compounds.
    So getting to my question, Dr. White, I just laid out the 
thinking of the sponsors, and of our disclosure act and how we 
designed a regulatory on ramp for inclusion of PFAS into the 
Toxics Release Inventory. Is it fair to ACC's members are 
familiar with the requirements of the TRI and associated 
filings?
    Ms. White. Yes. ACC members are familiar with the TRI 
findings and how things should be listed. As you have 
highlighted in your bill, we would be supportive of reviewing 
the TRI requirements. So there are specific criteria that get 
chemicals listed on the TRI that determine whether or not there 
was actually an adverse health effect associated with those 
chemistries before they are listed.
    So as a scientist, you would have to support that science 
review of the specific TRI criteria to determine whether or not 
the specific PFAS that you have identified here in the bill 
actually warrant listing under TRI.
    Senator Capito. Obviously, by my support of the three 
bills, I feel just--of my awareness of what has happened in my 
particular State, I would say obviously that is why I am 
sponsoring this legislation, because I feel it does need to be 
included in the TRI.
    But let me talk about some of the misinformation out there 
on this bill. It is onerous, and it would apply to actors like 
Mom and Pop gas stations, and it would feed all kinds of civil 
lawsuits and short circuit the EPA regulatory process.
    Mr. Faber, do you feel that S. 1507 prevents these sorts of 
outcomes with its structure of regulatory approach? Do you have 
an opinion on that?
    Mr. Faber. Only industrial dischargers in certain 
categories would be subject to your bill, Senator.
    Senator Capito. Yes. Thank you.
    Ms. Daniels or Mr. Mehan, do you have anything to add on 
that point? The accountability measures inherent on the TRI 
will help limit or prevent emissions, hopefully relieving the 
remediation burdens on communities and water systems. So do you 
have anything to add on that point, since your stakeholders 
will have to deal with the contamination once it is in the 
water?
    Ms. Daniels. Yes, thank you. I think it is absolutely 
necessary that we get more information out to both the public 
and the States in terms of where these chemicals are. I know as 
a State, we filed multiple FOIA requests in preparation for our 
sampling plan, because we wanted to know where the highest risk 
was. Nobody could tell us where these chemicals were being 
used. So right now, there is a lack of information.
    Mr. Mehan. Senator, AWWA hasn't normally taken positions on 
TRI issues. But speaking personally, TRI is the premier 
information based environmental program. I think it is a 
useful, hygienic way to encourage people to pursue pollution 
prevention, toxic use reduction through a relatively light 
handed approach.
    The only critique that I think has some merit about TRI is 
that all those listed are really risk based. I think, to the 
extent again, if you are talking PFAS as a category, we would 
caution against that approach. But to the extent you are 
picking a subset of high risk compounds, that might be worth a 
conversation.
    Senator Capito. Our staffs, both Republican and Democrat, 
have worked with ACC's members and AWG to try to arrive at a 
solution here on S. 1507. So I would ask both you, Dr. White, 
Mr. Faber, if you would continue to work with us in a 
collaborative way so that we can find a sweet spot here in 
something that is very troubling.
    Ms. White. Thank you.
    Mr. Faber. Thank you, Senator.
    Senator Capito. Thank you. I will just say this in my final 
10 seconds. We can sit up here and talk about CERCLA and TRI 
and PFAS and PFOA, and honestly, if my constituents are home or 
listening, they have no idea what I am talking about. What we 
are simply talking about is making sure that our drinking water 
is as safe as it can possibly be for us now and for future 
generations. Because a lot of these substances stay in your 
water forever or for what forever would be. Very long pieces of 
time.
    So I think it is in all of our best interests to talk as 
simply as we can about the goals that we have in terms of 
cleaning up our drinking water, remediating the problems, 
facing the problems, and being honest about it and transparent, 
helping small water systems when and how they need it to meet 
these difficult challenges. Because we know that is going to be 
an issue.
    So I am pledging to you to work with my partners here to 
find a way to find these answers, to make sure that our next 
generation does not wake up someday and find out that they have 
had a negative impact to something that we were talking about, 
CERCLA and TSCA and all these other things, and not quite 
getting to the real answers. That is my hope with being so 
active on these bills.
    I thank you all for listening.
    Thank you.
    Senator Barrasso. Thank you very much, Senator Capito.
    According to my records of arrival first, I think Senator 
Markey was here earlier and has come back.
    Senator Markey. Much appreciated. Thank you, Mr. Chairman.
    PFAS used in firefighting foams poses a particular danger 
to both civilian and military firefighters. The use of these 
foams during training and emergency response is a major source 
of PFAS contamination of groundwater on military bases and near 
civilian training facilities.
    In my home State of Massachusetts, high levels of PFAS have 
been found near Fort Devens, Barnes Air National Guard Base, 
Joint Base Cape Cod, and the Barnstable County Firefighter 
Training Academy. Our firefighters and military personnel 
willfully put themselves in harm's way to keep their neighbors 
and country safe. We should be all we can to keep them safe in 
return.
    Mr. Faber, civilian airports can now use non-PFAS foams to 
fight fires, but our military members and many firefighters, 
civilian, remain at risk. What other steps should be taken to 
limit the use of PFAS containing firefighting foams as well as 
better understand their risks?
    Mr. Faber. Thank you, Senator. Firefighters do face unique 
risks from PFAS because PFAS is in the foams, as well as in the 
turnout gear that they wear to fight fires. While we do not 
know all the ways that firefighters are likely to get certain 
cancers, more than the rest of the population, we do suspect 
that PFAS is one of them.
    One of the things that Congress should do is do more to 
test the blood of firefighters for PFAS and legislation has 
been proposed, the Protecting Military Firefighters from PFAS 
Act. That would also build on a study that was include in the 
NDAA last year, but did not include firefighters, and should 
have. So there are opportunities to better understand how PFAS 
are impacting firefighters.
    More broadly, we need to really accelerate efforts to 
reduce the use of fluorinated foams wherever possible, 
beginning with ending the use of fluorinated foams in training 
exercises, whether that is in civilian airports, training 
academies, and other situations.
    Senator Markey. Great. In response to my questioning during 
the Committee's previous PFAS hearing, Deputy Assistant 
Secretary Sullivan said that the Department of Defense would 
``meet any properly promulgated standard that is issued by the 
State, and roll it into our cleanup program.''
    Mr. Faber, of the five States that have issued or proposed 
stricter regulations on PFAS contamination in water, would you 
consider these ``properly promulgated''?
    Mr. Faber. Yes, Senator. There is guidance on when a 
regulation, in this case, has been properly promulgated. It has 
to be legally enforceable; it has to be generally applied. Many 
States have already promulgated rules to restrict or reduce the 
presence of PFAS. Many other States are doing so. In certain 
situations, the Department of Defense should be deferring to 
those State standards when cleaning up these contaminated 
sites.
    Senator Markey. And the PFAS Accountability would require 
cooperation between DOD and States on cleanup efforts.
    As part of their jobs, non-military firefighters are 
exposed to PFAS in multiple ways, including in their suits. 
This is an occupational hazard, and I believe we should be 
tracking this civilian worker exposure and addressing it, 
similar to what the military is doing for their firefighters.
    Mr. Faber, do you agree that we should be studying 
occupational PFAS related hazards that might be affecting our 
community firefighters?
    Mr. Faber. Absolutely. We should expand the NIOSH study 
that is currently underway to add firefighters to better 
understand the impacts that PFAS foams and turnout gear are 
having on firefighters.
    Senator Markey. Disgracefully, they have been exempted from 
previous studies and are not getting the same blood tests that 
military firefighters are getting. That must change.
    Mr. Faber, would designating harmful PFAS as hazardous 
chemicals under the Superfund law help communities near 
military bases that are struggling with contamination?
    Mr. Faber. Yes, Senator. Designating PFAS as a hazardous 
substance under CERCLA would really kickstart the remediation 
process, so that communities that are located near air bases, 
other Federal facilities, would be ensured that there would be 
an effort underway, either between DOD or in the case of NASA, 
or other Federal facilities, an effort between EPA and the 
Federal facility to clean up the mess and make sure that 
responsible parties pay their fair share.
    Senator Markey. So States are being forced to step up to 
protect the health of their residents, as the EPA continues to 
slow walk a national plan of action. The least the Department 
of Defense could do is meet or exceed States standards. 
Instead, the Defense Department is denying and dodging, at the 
expense of our military members' and their families' health. 
Meanwhile, we still don't have the full answers for our 
firefighters in every community in the United States in terms 
of the protections they will be given.
    Thank you, Mr. Chairman, and thank you, Mr. Faber.
    Senator Barrasso. Thank you, Senator Markey.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Thank you to the panel for being here.
    I want to add a thank you to somebody who is not here, 
which is my home State paper, the Providence Journal, which has 
done an amazing job of covering the threats of climate change 
along our coasts. They have done repeated front page, above the 
fold articles about the risks Rhode Island's coastline is 
facing and how we are having to prepare.
    In that spirit, they have also done a terrific job on PFAS 
contamination in one of our municipalities, in Burrillville, 
which is facing water contamination. I would like to ask 
permission to put their article on Burrillville's contamination 
into the record.
    Senator Barrasso. Without objection, so ordered.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. Thank you.
    Mr. Chairman, we have, I think, done some very good work in 
this Committee in bipartisan fashion. We have done good work on 
TSCA, which ended up passing in very significant bipartisan 
fashion. Regrettably, we saw the Trump EPA make a hash of that 
bipartisan effort. Then in bipartisan fashion, we corrected it. 
I actually introduced a Trump nominee for the Toxic Chemicals 
Section at EPA to put us back on bipartisan course.
    I think it is a real concern when a divided Senate comes 
together in bipartisan fashion on an issue like this and then 
finds that the agency has gone off on a partisan tear. We are 
supposed to be the political ones, not the agency. We saw it 
recently with the NRC. This Committee, myself, Senator Crapo, 
the Chairman, and others have done terrific work passing 
bipartisan nuclear innovation bills.
    What happens? The NRC, on a partisan basis, goes out, 
outside of the record of the rules proceeding that they are 
operating under, and unilaterally, the Republican appointees 
only decide something that nobody asked for in the public 
record, which is that nuclear facilities shouldn't be required 
to prepare for flood risk. I don't know how you could have a 
dumber decision. And the fact that they would do that on a 
partisan basis, with such a good record of bipartisanship here 
on the Committee, is very frustrating.
    I think where this Committee has stood together on a 
bipartisan basis, agencies need to take the message and work as 
if they were bipartisan, too, and not inject a lot of nonsense, 
polluter driven partisanship into the agency's decision. For 
Pete's sake, if we can get over it, you ought to be able to get 
over it out there in the agencies.
    So this is a real frustration to me. Ms. White, the 
American Chemistry Council worked well with us on TSCA. I think 
that helped the signals about the early enforcement and was 
part of the solution that I brought Alex Dunn in, who I think 
is a good Administrator. I hope that you are leaning in as a 
council to try to solve this problem in that same bipartisan 
spirit on which we all worked together on the underlying TSCA 
bill and on correcting the initial enforcement.
    Ms. White. Thank you, again, Senator Whitehouse. As you 
mentioned, and to me, as a toxicologist and a scientist, ACC is 
absolutely willing to be a constructive partner in this 
process, and making sure that science kind of underlies this 
process as we evaluate how to mitigate and manage any 
associated risks with PFAS chemistries.
    Senator Whitehouse. Good. Because bipartisanship is a 
terrible thing to waste.
    Ms. White. I agree.
    Senator Whitehouse. It takes all the fun out of working in 
a bipartisan fashion if what happens is, we get kneecapped by 
partisanship in an administrative agency, after we have avoided 
partisanship here in the most partisan of branches of 
Government.
    Ms. Daniels, we are likely to be taking up an 
infrastructure bill of some kind. Who knows? The President 
topped Speaker Pelosi's trillion dollars and said $2 trillion. 
So who knows what is it going to be?
    His budget person, Mr. Mulvaney, promptly came out and 
undercut the President, so we don't really quite know how that 
is all going to turn out. But there is a real likelihood, I 
think, of there being an infrastructure bill. Our side 
certainly wants one, and I think there has been considerable 
support on this Committee on a bipartisan basis for our share 
of a strong bipartisan bill. I thank the Chairman for that.
    What would you like to see in an infrastructure bill that 
would help your constituency deal with this contamination 
problem?
    Ms. Daniels. Thank you for the question. Yes, we certainly 
are supportive of an infrastructure bill for all of the other 
things that water suppliers need. Pittsburgh, a town in 
Pennsylvania, is certainly one of those examples of what 
happens when you have deferred maintenance. That is a concern 
for us.
    Specifically for PFAS, I do think we need to look at 
alternate funding sources. Because I do believe the incredible 
costs, so just to put GAC on one well, for example, could be 
anywhere from $500,000 up to $1 million. When you are talking 
about other advanced technologies for the shorter chain 
chemicals, like GenX, you are talking tens of millions of 
dollars.
    We are going to have to think long and hard about alternate 
funding sources for these systems. Because there are already a 
lot of great needs within the SRF program itself to deal with 
lead and some of the other problems that we have been talking 
about here.
    Senator Whitehouse. Mr. Chairman, I would just please urge 
that you all get back to us over whatever period of time is 
appropriate, even outside the scope of this hearing, to share 
with the Chairman and the members of this Committee what some 
of your ideas might be for an infrastructure bill, so that we 
have a chance to look at them and digest them, and if things 
start to move in a serious way, that they get every fair 
consideration which they deserve. OK? Thanks.
    Thanks, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Before turning to Senator Van Hollen, I would point out 
that the six bills posted for the hearing today were all 
bipartisan bills.
    Senator Whitehouse. Great. Thank you.
    Senator Barrasso. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    I thank all of you for your testimony here today.
    Mr. Chairman, thank you for calling a hearing on the 
subject. I think all of us are concerned about PFAS 
contamination in our States.
    In Maryland, we have five identified PFAS sites, Andrews 
Air Base, Fort Meade, Tipton Airfield, former David Taylor 
Research Center, now called Bayhead Road, Aberdeen Proving 
Ground and something called Chesapeake Bay Detachment. So we 
have five sites. We do have a good, cooperative group working 
between the Defense Department, EPA, and the State, Maryland 
Department of the Environment. That is the good news.
    But the Maryland Department of the Environment did indicate 
that they could use additional help and support. So when we 
contacted them about Senator Carper's bill, they were 
supportive. And I am a co-sponsor of that bill to designate 
PFAS as a CERCLA hazardous substance.
    That of course makes Federal agencies, in the case where it 
is Federal agencies having PFAS, liable for the cleanup. I 
think that is important, because that now puts it not just as a 
voluntary effort, but a legal effort. Now, of course, the 
funding issue is real.
    To all of you, when the Federal Government becomes liable 
for cleanup, I assume that means they have to find the money 
within their budgets. Is that the case?
    Mr. Faber. That is right, Senator. In the case of Wallops, 
for example, if NASA were to be found responsible for the PFAS 
pollution that were on base or off base, they would have to 
find the resources to help finance the cleanup. They could also 
see contribution from some of the other responsible parties, in 
this case, foam manufacturers or chemical companies. But 
ultimately it would be NASA dollars, not Superfund dollars, 
that would pay for the cleanup.
    Senator Van Hollen. You anticipated my question, because 
Wallops is another facility where we have a PFAS issue. I 
listed five that are in the State of Maryland. PFAS is, of 
course, in Virginia, but very close to Maryland. We have 
workers from both States there trying to make sure that that is 
a safe facility.
    So under that scenario, NASA would be primarily responsible 
for the cleanup.
    Mr. Faber. For Fort Meade, for the parts of Fort Meade that 
are still under DOD control, it would be DOD's responsibility.
    Senator Van Hollen. Now, in your experience, are those 
funds that come out of the--are there legal liability funds 
that are appropriate, or have they been separately appropriated 
in the past?
    Mr. Faber. In the case of DOD, DOD does have, under the 
Superfund Amendments of 1986, a program, the Defense 
Environmental Restoration Program, that has helped finance some 
of that remediation. So they have funding that is annually 
appropriated to help clean up contaminated sites, munitions, 
burn pits and so on. Not nearly enough money has been 
appropriated. And as we have heard earlier, DOD has been 
reluctant to take on responsibility for PFAS contamination that 
started on, especially airbases, and now contaminating nearby 
communities, near Dover or F.E. Warren or other airbases in 
Maryland.
    One challenge is, when States are in control of the cleanup 
under CERCLA, there is no provision in CERCLA that requires DOD 
and States to enter into cooperative agreements than then force 
DOD to meet certain deadlines and fulfill their 
responsibilities. S. 1372, the PFAS Accountability Act, would 
ensure that in those circumstances, that DOD has to meet a 
properly promulgated State standard, as long as it meets 
certain criteria.
    So one missing piece in the world of CERCLA is this 
requirement that DOD or NASA or other Federal facilities do 
have to meet these State standards when States are the lead 
agency in charge. That does happen under CERCLA.
    Senator Van Hollen. I am glad you raised that. In Maryland, 
for example, under the Maryland Controlled Hazardous Substance 
Act, Maryland has become the lead agency for CERCLA designated 
hazardous waste. So you are saying that the other legislation 
would be required to make sure that the State of Maryland is 
not on the hook to pay the bill?
    Mr. Faber. If the State--and in the case of Wallops, NASA--
were not able to reach a cooperative agreement, then there 
would be a duty on NASA to alert you, Congress, so that you 
could get involved and ensure that DOD or NASA or whatever 
Federal agency created the pollution problem was living up to 
their responsibilities.
    Senator Van Hollen. Thank you.
    I just also, Mr. Chairman, want to associate myself with 
Senator Markey's comments regarding addressing the occupational 
hazards to firefighters and others. Thank you.
    Thank you all.
    Senator Barrasso. Thank you, Senator Van Hollen.
    Before we adjourn, I would like to note that we have 
received a number of written statements from parties who would 
be impacted by the legislation before us. These include 
communities polluted with PFAS substances, as well as airports, 
rural drinking water providers, paper producers, metal 
finishers, refineries and others. I ask unanimous consent to 
enter these written statements into the record.
    Without objection, it is done.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Now I would like to thank all of you for 
being here today. Some members of the Committee may have 
written questions that they will give to you. So the hearing 
record will remain open for 2 weeks. But I just want to thank 
all of you for your time and your testimony and sharing your 
wisdom with us today.
    Thank you. The hearing is adjourned.
    [Whereupon, at 10:58 a.m., the hearing was adjourned.]
    [A prepared statement submitted for the record follows:]

                  Statement of Hon. Bernard Sanders, 
                 U.S. Senator from the State of Vermont

    Since early 2016, when perfluorooctanoic acid (PFOA), a 
type of per- and polyfluoroalkyl substances (PFAS), was found 
in hundreds of private wells and one municipal water system in 
southwestern Vermont, I have worked to ensure the Environmental 
Protection Agency (EPA) takes this threat seriously. The 
groundwater contamination in Vermont is the product of past 
industrial manufacturing in the area. PFAS--a toxic chemical 
that can cause cancer, thyroid disease, obesity, and immune 
problems--is very dangerous to human health in extremely low 
concentrations.
    Vermont has led the Nation in its response to PFAS 
contamination, passing a law requiring one of the strongest 
drinking water standards in the country for five PFAS 
compounds. The law requires water system managers to test for 
the five compounds by the end of this year. If levels above the 
standard are found, water utilities will have to treat water to 
lower levels and provide residents with clean drinking water 
until the public supply is safe.
    Meanwhile, Andrew Wheeler's EPA has proposed a very weak 
``action plan'' that does not come close to protecting public 
health and a clean environment. That is what happens when the 
EPA acts on behalf of corporate polluters instead of protecting 
public health and a clean environment. Communities all across 
the country, particularly communities of color, find themselves 
time and time again fighting for the basic right to clean air 
and clean water. If Administrator Wheeler is successful, we 
will continue to see this same type of groundwater 
contamination in communities all across the country. That is 
unjust, and that has got to change.
    In the richest country in the history of the world, it is 
not a radical idea to demand that when people turn on their 
taps, the water they drink is safe and clean, not filthy and 
poisonous. In February, I was proud to introduce the WATER Act 
to deliver water justice to millions of people who lack access 
to clean and safe drinking water and create up to a million 
jobs in the process.
    My bill would help communities struggling with PFAS 
contamination by extending the State Revolving Loan Fund to 
cover PFAS contamination. My bill would provide support to 
update treatment systems or find alternative water supplies 
when community water systems or household water wells have PFAS 
contamination.
    If President Trump was serious about addressing our 
crumbling infrastructure, which he is not, he would tell Mitch 
McConnell to bring this bill up for a vote and get Republican 
Senators to vote for it. Most Americans agree that everyone has 
a right to breathe clean air and drink clean water, but this 
EPA apparently disagrees. We have got to stand up and demand 
environmental policies that protect all of us, not just the 
profits of chemical corporations.
    If we are serious about modernizing our aging water 
infrastructure in Vermont and across the country, we must make 
a significant and prolonged investment on the Federal level. 
Instead of cutting rural water funding like the Trump 
administration has proposed, we should dramatically increase 
support for these types of critically important projects.

    [Text of legislation submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
